'■“5

No: 20-629
IN THE
SUPREME COURT OF THE UNITED
STATES
Petitioners
In Re: James Beggs and Joyce Beggs
“Ex Parte of “Said Child Liberties”
“Ex Parte of “Said Veteran”
Vs
Cunningham Linsey et al
Extraordinary Writ of Habeas Corpus
Ad Faciendum Et. Recipiendum

Petition for Rehearing En Banc
On Petition From USCA4 19-1859, Virginia
Supreme Court No: 190102 & No: 052475
On Petition for Civil Action No. 4:17-cv-110AWA-DEM Appealed from The United States
District Court of Virginia at Newport News
On Petition from the Virginia Beach Circuit
Court System and No: CL16004672-00.
On Petition for Hampton Circuit Court
NO: Case 97-36817
Pro’se James Beggs
Pro’se Joyce Beggs
312 South Willard Ave
Hampton, Virginia 23663
757 265 7784

RECEIVED
JAN I I 2021

Added Questions for Rehearing
Was Former Senator Elisabeth Dole Research on
Caregivers voided in Conspiracy to mislead the
Virginia Beach Courts Systems that “Said
Veteran” was being Physically Evicted from his
sleep saving his child Life on July 20, 2016.
Was a Veteran deprived of continued Mental
Health Care from a War Zone under President
Obama Executive Orders in 2016 by Conspiracy
Under Title 18, U.S.C., Section 241 & 242 to void
his Legally signed Custody and Guardianship
Documents.
Whether Officers of the Court used Fraud on the
Court Misuse a Child Estate by Voiding
Petitioners Emergency Custody & Guardianship.
Do Black Republicans, Black Professionals,
Native Americans who suffer Plots under Title 18,
U.S.C., Section 241, need Protections under
Domestic Terrorism Act to protect We the People.
Whether violations of the “prejudice prong of
Strickland” under the Six Amendment caused
Cruel and Unusual Treatment to all Petitioners.
Did Female Conspirators use Black Professionals
without sharing their Motives in of Plot of
Domestic Terrorism against all Petitioners over
20 years.

n
TABLE OF CONTENTS
..Page i
Added Question for Rereading
..Page ii
Table of Contents....................
Page iii
Table of Appendix..................
Stopping Domestic Terrorism and protecting the
Page 1
Historical Town of Hampton
Children Hospital of Newport News & Norfolk
Healing “Said Child” December 2020...Page 2
EXTRAORDINARY INTERVENING
CIRCUMSTANCE
Page 4
Cunningham Lindsey sold to Sedgwick without
Settlement without Notice to Federal Courts or
Page 6
Petitioners
Seaboard Air Line Ry. Co. v. United States, 261
Page 6
U.S. 299 (1923)
Plots to Destroy Petitioners First Attorneys
in Hampton 1996 and Petitioners first Attorney
in Virginia Beach Virginia in 2016 Page 7
..Page 7
Ghost Writing Evidence.................
Under Seal Attorney Communications to Protect
Page 8
Client Petitioners..................
Section 2 of the Sherman Act.....Page 9
Bel Atl Corp v. Twomly
Page 11
“United States v. Grinnell Corp., 384 U.S. 563,
Page 12
571 (1966)
Bunning -Bereuter-Blumenauer Flood Insurance
Page 12
Act of 2004
Conclusion
Page 14

m
Rehearing Table of Appendix
Appendix - A
Rehearing in USSC NO: 931 Virginia Supreme
Court No: 052475
Appendix - B
Some Ghost Writing Evidence from Virginia
Supreme Court No: 052475
Appendix - C
Evidence Cunningham Lindsey sold to Sedgwick
Appendix - D
Under Seal Attorney Communications to Protect
Client Petitioners
Appendix - E
Hampton City Property Records, Flood
Insurance information starting 2016-2019
Appendix -F
Corrected Table of Content from Extraordinary Writ
of Habeas Corpus

1
Stopping Domestic Terrorism and
protecting the Historical Town of Hampton
The Petitioners Historical Home sits on
Shepard Mallory Farming Land who was the first
of 3 Contraband Slave at Fort Monroe. Who
farmed with Petitioner Joyce Beggs Great
Grandfather with Ex-Slave Named Mr. James
Kirkpatrick who was truly his Master Builder
before receiving his Freedom. Who brought a
apart of Shepard Mallory Historical Property with
the payment of a Muscadine Grapevines.
The Ex-Slave James Kirkpatrick completed his
home. Building it beyond Building Codes of today
to last throughout the Generations. Could be one
of many Motives of suffering a misunderstanding
of their Family History.
Facing Terrorism for no reason as Petitioners
worked hard to list their home under Historical
Places December 2006, but somehow missing.
Suffering Terrorism that caused Petitioners in
1996, to move their children to the State of
Kentucky.
Take Classes at the Hampton City Code and
Compliance Department to study to learn
Construction and the Law with the help
University of Kentucky and Williams and Mary
Law Libraries. Appendix A
Suffering missing history of the Property being
restored by the City of Hampton. See Appendix E

2

Children Hospital of Newport News &
Norfolk Healing “Said Child”
December 2020
“Said Child” medical condition had been
corrected by Children Hospital in both Locations
of Newport News & Norfolk working together
without the uses of Parental Alienation by giving
them time to place “Said Child” away from the
Conversation Listening to the Petitioners and
healed “Said Child”. Respecting all Grandparents,
focusing on “Said Child”. With December 3, 2020
being the first time, their family had a quality of
Life for “Said Child” not being sick. With a
Wonderful Visitation Time with no medical
suffering. Making both Petitioners, Respondent
Beverly Story and “Said Veteran” very happy,
being completely healed of all Medical Problems
she was born with. Needing rehearing of an “Ex
Parte of “Said Child” to Return back to Petitioners
restoring her Liberties”. An “Ex Parte” of “Said
Veteran” full release return to Treatments at the
VA: restoring his Parental Rights. To focus on
Healing “Said Child” Serious Monophobia and
Autophobia Fears of being along before school age
next year; with the help of the Catholic School in
Hampton and locating “Said Child Estate” from
unknow Law Firms. Showing Both Petitioners
and Respondent Beverly Story can work together
with Joint Guardianship with Attorney Nicole A.
Belote (the Guardian Litems) ‘Tor Said Child” to
control Said Child Special Feeding Diet Cost,
Medication Cost and Schooling. With Visitation
to Respondent Beverly Story.

3

And Needing a Writ of Certiorari under the All
Writ Act to End Conspiracy and Domestic
Terrorism against all Petitioners for over 20
years; “the Petitioners Prayed would stop after
Congress passed President Bush Patriot Act”.
As a weak vulnerable Veteran of the United
States is continuously denied continued medical
As conspirators
attention for severe PTSD.
voided a President Executive Order 13625 from
2016-2020 of his War Injuries suffered from
Afghanistan by using plots of Domestic Terrorism
to destroy a Veteran of the United States, his
family and Petitioners. Needing an Rehearing En
Banc for an Extraordinary Writ of Habeas to
overturn and Vacate Judgment in the Fourth
District Court Case No: 19-1859. Jointing all
“As
Respondents from 3 Court Systems.
Petitioners requested review before judgment was
rendered in their Rehearing. With New Evidence
to connect the Virginia Supreme Court No:
190102 Mandamus from Virginia Supreme Court
Cases filed in this Court for a Writ of Certiorari
Just as Petitioners
U.S.S.C. No 19-1095.
Requested the Virginia Supreme Court in Case
No: 052475 from Hampton City Circuit Court to
Combine all Respondent back together to stop
Conspirators.
Whereas Petitioners Moves to Combind all
Respondents with the 4th District Court case in
this Rehearing. Showing that the case is of such
imperative public importance as to justify
deviation from normal appellate practice and to
require immediate determination in this Court.
See 28 U. S. C. § 2101(e). As Cited in Petitioners
Prayer for Judgment with State Farm sharing
responsibility of Punitive Damages of for over
500,000.00 with 250,000.00 for Domestic Violence
Programs in Newport News.

4
EXTRAORDINARY INTERVENING
CIRCUMSTANCE
Needing “Considerations Governing Review on
Writ of Certiorari” under 28 U. S. C. § 2101(f)
Needing the protections under the U S Solicitor
Attorney General Office for Protection as
Petitioners are a Protected Family of the United
States.
Showing at all times Cunningham Lindsey
had ties to State Farm Insurance Companies.
Showing said Evidence in the Hampton Circuit
Court in 1996 was used to destroy the Petitioners
and their Children as their Government was
replaced by Female Conspiracy.
The Petitioners Moves for a Rehearing En
Banc as the Petitioners focus on Clarifying True
Facts to the best of their ability: to show their
family suffered Domestic Terrorism for over 20
years from the Misunderstanding of Petitioner
Joyce Beggs research on Her Great Grandfather
fighting for his Own Freedom in the Civil War.
Starting her research at the same time her
Hampton City Government was being destroyed
by unidentified Female Conspirators found in a
Daily Press Newspaper Forum while researching
her Great Grandfather footsteps. That showed
actions to over throw the Hampton City
Government; joining that forum under the Name
“MrsJustice”. Unable to help her New City “The
World Looked to as the Freedom Fortress.
Unaware that Mayor Butler History was Buried
with the Contraband Slaves; too dangerous to
research.

4
EXTRAORDINARY INTERVENING
CIRCUMSTANCE
Needing “Considerations Governing Review on
Writ of Certiorari” under 28 U. S. C. § 2101(f)
Needing the protections under the U S Solicitor
Attorney General Office for Protection as
Petitioners are a Federal Protected Family of the
United States.
Showing at all times Cunningham Lindsey
had ties to State Farm Insurance Companies.
Showing said Evidence in the Hampton Circuit
Court in 1996 was used to destroy the Petitioners
and their Children as their Government was
replaced by Female Conspiracy.
The Petitioners Moves for a Rehearing En
Banc as the Petitioners focus on Clarifying True
Facts to the best of their ability: to show their
family suffered Domestic Terrorism for over 20
years from the Misunderstanding of Petitioner
Joyce Beggs research on Her Great Grandfather
fighting for his Own Freedom in the Civil War.
Starting her research at the same time her
Hampton City Government was being destroyed
by unidentified Female Conspirators found in a
Daily Press Newspaper Forum while researching
her Great Grandfather footsteps. That showed
actions to over throw the Hampton City
Government; joining that forum under the Name
“MrsJustice”. Unable to help her New City “The
World Looked to as the Freedom Fortress.
Unaware that Mayor Butler History was Buried
with the Contraband Slaves; too dangerous to
research.

5
Stepping away from said forum because the
Petitioners learn that her Neighbor was direct
Family members to the Owners of the Daily Press
with a history of Newport News to Protect them.
Given this Evidence to the Virginia Supreme
Court No: 052475 to Join all Conspirators. Just as
Petitioners asked the Virginia Supreme Court to
combine all conspirators together in Record No:
190102.
The Petitioners also asked the 4th District
Court to combine Cunningham Linsey et al in
USCA4 No: 19-1859 during Rehearing to USSC
Case No 19-1095 in light of New Evidence.
Petitioners was not able to research because of
Covid-19 at William and Mary Law Library being
closed to the Public as to: Why Cunningham and
Linsey changed to an LLC during Civil Litigation,
with no Objections from other Respondents.
Making all Respondents also responsible for
ongoing plots against Petitioners.

.1

6

Cunningham Lindsey sold to Sedgwick
without Settlement without Notice to
Federal Courts or Petitioners
The petitioners researched Cunningham Lindsey
changes of an Inc. to an LLC during litigations of
these complex cases. See Rehearing Appendix C
Finding that Cunningham Lindsey was sold to
Sedgwick in 2018 to delivers property loss
adjusting and claims administration and global
account management, forensic, engineering, and
restoration.
Showing a pure hate crime by conspiracy with
with-out notifying the Courts in Petitioners Civil
Action No. 4:17-cv-110-AWA-DEM pending in the
United States District Court of Virginia at
Newport News and the 4th District Court No: 191095 nor Petitioners. Misleading the Federal
Courts, that Petitioners was under WYO.
Fraudulently under valuing their FMV. Citing
Seaboard Air Line Ry. Co. v. United States, 261
U.S. 299 (1923)
Showing the Petitioners and children are not
safe from Conspiracy and Domestic Terrorism in
future plots. Truly Misleading the Federal
Courts. Allegedly having the true powers to block
Social Justices to many U S Citizens to suffered
like the Petitioners under U S C 18 section 241 &
242 with agents like Geico Agents Beth Roberts
and Amana Williams playing a large roll in
alleged conspiracy.
Not even offering the Petitioners a settlement
during pending litigation. Knowing they were
being sold to Sedgwick.

1

7

Plots to Destroy Petitioners First Attorneys
in Hampton 1996 and Petitioners first
Attorney in Virginia Beach Virginia in 2016
Petitioners watched her Hampton City
Government slowly destroyed from with-in that
also affected her pending case 97-36817, along
with the Hampton Clerk Office. As unidentified
Females plotted to test a Black Employee in that
office name Linda Smith without her knowledge
Shown in Petitioners Virginia
nor plans.
Supreme Court Record No: 052475 “Ghost
Writing Evidence. “See Rehearing Appendix
A”; that started Civil Terrorism against the
Petitioners/Children. Petitioners Requested the
Virginia Supreme Court to combine all cases from
the Hampton Circuit Court together. Showing
forth Ghost Writing Conspiracy as Evidence; that
shows female conspirators plotted to destroy
Hampton Mayor James “Jimmy” Eason, George
Wallace and Clerk Jim Bohnaker.
Said Actions destroying Petitioners and their
Children by replacing her Hampton City
Government.
That caused interfered with
Petitioners First Attorney of Record and Hon.
Judges Ford involved in her cases, just because of
a misunderstanding of her own Family Research
on Contraband Slaves in the Phoebus area of Fort
Monroe Virginia,
Just as Conspiracy plots
destroy Petitioners first Attorney of Record Henry
M. Schwan in Virginia Beach Case No JJ21626401/12/03/00 2016 during Custody and Flooding.
“See Appendix B”

8

Under Seal Attorney Communications to
Protect Client Petitioners
Petitioners “Attorney and Petitioners James
Beggs did not agree with Petitioner Joyce Beggs
to Adopted Respondent “Beverly Story; an elder
citizen senior” to focus on healing “Said Child”
true Medical Condition; to stop Conspiracy to give
a sick child to a senior citizen the Petitioners paid
to baby-sit for the Late Liza Story as they witness
her Violent Strong Anger Problems to help out
and understand before July 20, 2016. With
Petitioners working around the clock to correct
flood damages before home visit with Respondent
Cynthia King from USSC Case No 19-1095 who
Reschedule a Home Visit during Petitioners
Flooding Events in 2016. Unable to communicate
clearly with their Attorney because of all Flood
Repairs. Unable to talk to their attorney together,
working with contractors to save money as
Conspiracy Caused confusion, not having the time
to address all Information giving to their Attorney
by Virginia Beach Attorney Christiana R.
Dougherty-Cunningham. Causing their Attorney
to step down as they Trusted Cunningham
Lindsey and Geico Agency to correct fraudulent
information for their Proof of Lost of Fair Market
Value. Voiding Home Visit, learning Petitioners
completed flood repairs using their own money.
See Appendix D

)

9
Therefore, Petitioners and Their Attorney “did
not know” all Respondents in both cases USSC
No; 19-1095 and USCA4 No: 19-1859 Conspired
Together using a Natural Flooding Disaster to
Terrorize Petitioners. As Respondents had a
Severe conflict of Interest with Virginia Beach
City Attorney Office with Christiana R.
Dougherty-Cunningham that Voided their
Virginia & U. S. Constitution Rights, Presidential
Executive Orders, and Acts of Congress.
Section 2 of the Sherman Act
Needing a Rehearing En Banc in light of new
evidence together with USSC No; 19-1095. That
would have shown the Monopolization used by all
parties controlled by female conspiracy with New
Evidence under “Section 2 of the Sherman Act
reads as follows: “Every person who shall
monopolize, or attempt to monopolize, or combine
or conspire with any other person or persons, to
monopolize any part of the trade or commerce
among the several states, or with foreign nations,
shall be deemed guilty of a [felony].
Forcing Petitioners to handle their own Legal
cases focusing on Conspirators to stop and
understand the Domestic Terrorism against their
Family that was undermining the Court System
and the needed federal Investigations involving a
Sick Veteran of the United States who {is} a
Missing Patient at Hampton Veteran Hospital.
Needing to Add all Conspirators together in
light of New Evidence of Domestic Terrorism
under 18 U.S. Code § 2331. See Appendix E

y
)

10
Showing forth Cunningham Lindsey conspiracy
changed to an LLC during litigations without
notifying Petitioners, nor discloser the Newport
News Federal Court nor the Fourth Circuit Court
with no Objections from other Respondents before
the 4th Circuit Court.
Therefore Connecting all Respondents from all
3 Court Systems. Showing the Virginia Supreme
Court and the United States Court of appeals
from the 4th District was misled with Fraud on
the Courts. Showing Respondents Conspiracy in
Civil Action No. 4:17-cv-110-AWA-DEM from the
United States District Court of Virginia at
Newport News on page 6 of the 19-page Court
Order from the Lower Court, failed to grant
Petitioners Justice of their complaint.
As Petitioners true evidence is factual on its face
with Petitioners 2 Proof of lost “not being a WYO
Policy with promises from Respondents to correct
false information on both Proof of Lost.
Fraudulently Under Valuing their Home by
2/3 of Hampton City treasurer Molly Joseph Ward
Value on Petitioners Home; to miscalculate a
miscarriage of Justice. Taken advantage of her
Historical City of Hampton Virginia to destroy
people who are different, purely Hated. Living
each year with domestic terrorism plots against
Petitioners and their children. See Appendix E

11
Voiding Bel Atl Corp v. Twomly; as
Respondents mislead the Court as cited on page 6
of said Court 19-page Order. With Petitioners
showing Respondents violated Section 1 of the
Sherman Act by alleging parallel conduct by
Respondents amounting to a conspiracy” with this
Court ruling in a 7-2 that a plaintiff claiming, a
Section 1 violation must also allege facts that, if
true,
would
suggest
a
conspiratorial
agreement. Petitioners new factual evidence of
Conspiracy proves Domestic Terrorism and
Conspiracy of all Respondents for over 20 years as
Cunningham and Lindsey, etc. al being used in
female Conspiracy, being connected with
Petitioners church but in a different location.
Not knowing Why Cunningham Lindsey was sold
to Sedgwick in 2018. Not trying to settle with the
Petitioners, as they suffer continues plots of
Domestic Terrorism by female conspiracy.
Needing this Court to Protect Petitioners
Federal Constitutional Rights and protect
Petitioners Church Members that can be used in
plots of Domestic Terrorism and Protect the City
of Newport News. As Conspiracy has now turned
into a Monopoly with no protection for all
Petitioners Family, Grand Children. Needing to
protect their liberties. Showing Domestic
Terrorism means activities; involve acts
dangerous to human life that are a violation of the
criminal laws of the United States or of any State.
Thar appear to be intended.

}

12
Showing Monopoly is “the power to control
market prices or exclude competition. “United
States v. Grinnell Corp., 384 U.S. 563, 571 (1966),
that concerns the Public Rights that caused
Terrorism to the Petitioners used in these
complex cases to destroy all Petitioners. Causing
economic harm using political power because of
Petitioner Pictures of Republican Leadership in
their home by large companies like Cunningham
Lindsey et al with connections to State Farm
Agents and Geico Agency. Using Bad Faith and
Fraud on the Courts. Combining Monopoly with
Conspiracy under U S C. 18 Section 241 & 242
“equals” willful Domestic Terrorism against all
Petitioners control by Female Conspiracy.
Causing the Petitioners to add all important
Federal Questions. That also shows “the Virginia
Beach Circuit Court, Virginia Beach Juvenile
Court Systems Cases and the Hampton Circuit
Court were misled by Respondents Conspiracy
against a Black Republican and family for over 20
years under USC Title 18, section 241 & 242,
needing to be added to the 4th Circuit for All
Knowing
Respondents Federal Violations.
Petitioners Property was 92,100.00 2016 under
NEIP that require a FMV under FEMA and the
Flooding Insurance Act. See Appendix E; shows
Petitioners Building coverage was 227,800.00 in
2016 for the Historical Value under the
BUNNING-BEREUTER-BLUMENAUER
FLOOD INSURANCE REFORM ACT OF 2004
that request a FMV for all FEMA programs.
With 87,000.00 for Contents to cover Petitioners
Gardening tools, tillers, Grass Cutting Tractors
and personal Items. Knowing Petitioners grow
their own food. Causing Petitioners to farm with
hands in 2016.

2
\

13
Whereas all Conspirators Bad Faith is under 18
U.S. Code § 2331.Definitions; to intimidate or
coerce others by entrapment civilian population to
negatively use Badfaith to influence the policy of
a government by intimidation or coercion; or
affecting the conduct of a government by mass
destruction, assassination, or kidnapping; within
the territorial jurisdiction made to suffer like the
Petitioners. That took “Said Child” without a
Court Order; is kidnapping. Taken Said Child
Liberties. Who is not accepted by Neighborhood
Domination because of her research and secretly
hated under Loving v. Virginia. Suffering like
the entrapped Descendants of Contraband Slaves
living in the Phoebus Section of Hampton
Virginia; who secretly gave the Petitioner Joyce
Beggs the needed research of her Great
Grandfather who received his freedom from Major
Robert Butler. Living in fear from taking about
their history from ‘The Man”.
Telling the
Petitioners to be careful. “Too scared to tell her
who the ‘Man Was” that stands for the powerful
surrounding them since the “Civil War” with a
childlike syndrome of fear.
Making the Petitioner remember the research
on parental alienation syndrome by Dr. Richard
A. Gardner and do not understand this willful
female conspiracy who all knew children was
moving into an Historical Home 1995. Showing
Respondents Home Paramount have a good
Reputation in Newport News and Virginia Beach
used by Female Conspiracy.

*
/
tf

14
Moving this Court to Order them Pay
Donations to the Newport News Circuit Court for
their Battered Woman Organization to focus on
the Conspirators at this court discretion and stop
As “Said
all Federal Constitutional Violations.
Veteran” is using the Art Therapy from Said
Organization, as a child to healing himself. Living
without Treatment for Sever PTSD Covered
under a Presidential Proclamation. Overturning
the Hampton Complex Cases; Being the only way
to heal Parental Alienation by Good Faith Actions
by the Perpetrators. As to Why “Said Veteran”
did not want to tell Petitioners of his War Injuries.
Moving for State Farm must pay Punitive
Damage in Conspiracy with Cunningham Lindsey
etc. al; for over 20 years of U S Constitutionals
Violations to stop Female Conspiracy relieving
Virginia Court Systems under 28 USC 2241 &
2242 as they were misleading by Conspiracy and
Fraud on the Courts.
Conclusion
For the foregoing reasons, with “Corrected Table
of Contents for Extraordinary Writ of Habeas
Corpus (in Appendix F). Without Prejudice toward
Petitioners for intervening circumstances of
Rehearing Appendixes for Refences, and Facts.
Moving this Court to Grant Petitioners Rehearing
En Banc; note probable jurisdiction for Ex-Parte
Orders.
Respectfully submitted.
Pro’se James Beggs
Pro’se Joyce Beggs

Additional material
from this filing is
available in the
Clerk's Office.

